        OFFICE OF JUSTICE PROGRAMS 

          EDWARD BYRNE MEMORIAL

         JUSTICE ASSISTANCE GRANTS 

AWARDED TO THE NEW JERSEY DEPARTMENT OF LAW 

             AND PUBLIC SAFETY 


             TRENTON, NEW JERSEY


            U.S. Department of Justice 

         Office of the Inspector General 

                  Audit Division 

        Philadelphia Regional Audit Office 


           Audit Report GR-70-10-004 

                   June 2010

                     EDWARD BYRNE MEMORIAL 

                JUSTICE ASSISTANCE GRANT PROGRAM 

                     GRANTS AWARDED TO THE 

         NEW JERSEY DEPARTMENT OF LAW AND PUBLIC SAFETY


                              EXECUTIVE SUMMARY 


      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of two grants awarded under the Edward
Byrne Memorial Justice Assistance Grant (JAG) Program by the
U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA) to the New Jersey Department of Law and Public
Safety (DLPS), under grant number 2006-DJ-BX-0023 and the American
Recovery and Reinvestment Act (Recovery Act) grant number
2009-SU-B9-0026. The purpose of the grants was to support efforts to
disrupt drug and criminal networks; create community-based partnerships,
safe schools, and communities; aid in substance abuse treatment in
correctional facilities; improve the criminal justice system; provide law
enforcement training; and support New Jersey’s Safe Streets and
Neighborhoods Program to address violent crime through law enforcement,
prevention, and reentry focused strategies. As part of our audit, we also
reviewed grants 2007-DJ-BX-0099, 2008-DJ-BX-0063, 2008-DJ-BX-0759,
and 2009-DJ-BX-0801.1

       The purpose of the JAG Program is to allow states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on their own local needs and conditions. JAG funds can be used
for state and local initiatives, technical assistance, training, personnel,
equipment, supplies, contractual support, and information systems for
criminal justice for any one or more of the following purpose areas:

     • Law enforcement programs

     • Prosecution and court programs

     • Prevention and education programs

     • Corrections and community corrections programs

     • Drug treatment programs



     1
         Funding from these grants had not been expended at the time of our audit.


                                             -i-
     • Planning, evaluation, and technology improvement programs

     • Crime victim and witness programs (other than compensation)

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces; crime prevention and
domestic violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime by providing services directly to individuals and communities
and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Results

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) property management; (7) supplanting; (8) management
of subrecipients and contractors; (9) Financial Status Reports (FSR),
Progress Reports, and Recovery Act Reports; and (10) program performance
and accomplishments.

     As shown in the table below, the DLPS was awarded a total of
$53,363,818 to implement the six grant awards.




                                      -ii-
     EXHIBIT 1. EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
               GRANT PROGRAM GRANTS AWARDED TO THE NEW
               JERSEY DEPARTMENT OF LAW AND PUBLIC SAFETY

       Grant Award           Award               Award
                                                           Award Amount
         Number            Start Date           End Date
    2006-DJ-BX-0023        03/01/2006         09/30/2010       $5,160,709
    2007-DJ-BX-0099        07/25/2007         09/30/2010       $7,636,992
    2008-DJ-BX-0063        08/06/2008         09/30/2011       $2,775,529
    2008-DJ-BX-0759        09/30/2008         09/30/2011         $246,970
    2009-DJ-BX-0801        09/17/2009         09/30/2012       $7,789,303
    2009-SU-B9-0026        04/29/2009         02/28/2013      $29,754,315
                           Total:                            $53,363,818
Source: OJP Grants Management System (GMS).

      We examined the DLPS’s accounting records, FSRs, Progress Reports,
and operating policies and procedures and determined there were no
findings to report.

      •	 The financial management system provides for segregation of
         duties, transaction traceability, system security, and limited access.

      •	 The DLPS accounted for and reported program income accurately.

      •	 The transactions reviewed were generally properly authorized,
         classified, supported, and charged to the grants.

      •	 All costs associated with payroll and fringe benefits for the pay
         periods reviewed were supported and reasonable.

      •	 The FSRs reviewed under the grants were submitted in a timely
         manner and generally accurate.

        The DLPS adequately addressed its grant funded JAG priorities of
disrupting drug and criminal networks, implementing community justice
initiatives, continuing to address local public safety issues in schools and
communities, and making criminal justice system improvements throughout
the state. The DLPS was awarded a total of $53,363,818 in JAG funding
covering the 2006 JAG grant through the 2009 Recovery Act award to
address its priorities. The awards are detailed above in Exhibit 1.




                                        -iii-
      These items are discussed in detail in the Findings section of the
report. Our audit objectives, scope, and methodology are discussed in
Appendix I.




                                      -iv-
                                   TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1 

Recovery Act ..............................................................................2   

Audit Purpose .............................................................................3   

Background ................................................................................3   

OIG Audit Approach.....................................................................4       


FINDINGS AND RECOMMENDATIONS........................................ 6 

Internal Control Environment ........................................................6 

Drawdowns ................................................................................7 

Program Income .........................................................................8 

Grant Expenditures .....................................................................8 

Management of Subrecipients ..................................................... 11 

Monitoring Contractors............................................................... 14 

Reports ................................................................................... 14 

Program Performance and Accomplishments ................................. 17 

Conclusion ............................................................................... 18 


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....... 20 

APPENDIX II –NEW JERSEY DEPARTMENT OF LAW AND
    PUBLIC SAFETY RESPONSE TO THE DRAFT AUDIT
    REPORT .......................................................................... 22 

APPENDIX III – OFFICE OF JUSTICE PROGRAMS RESPONSE 

    TO THE DRAFT AUDIT REPORT ....................................... 24 

                                  INTRODUCTION

      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of two grants under the Edward Byrne
Memorial Justice Assistance Grant Program awarded by the Office of Justice
Programs (OJP), Bureau of Justice Assistance (BJA) to the New Jersey
Department of Law and Public Safety (DLPS). Specifically, we audited grant
numbers 2006-DJ-BX-0023 and 2009-SU-B9-0026, the 2009 grant being
provided by the American Recovery and Reinvestment Act (Recovery Act).
This represented $34,915,024 in total funding awarded to the DLPS. We
also reviewed grants 2007-DJ-BX-0099, 2008-DJ-BX-0063,
2008-DJ-BX-0759, and 2009-DJ-BX-0801.

       The Edward Byrne Memorial Justice Assistance Grant (JAG) is a
formula grant program in which 50 states, the District of Columbia,
American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
U.S. Virgin Islands are eligible to apply.2 The purpose of the JAG Program is
to allow states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and information systems for criminal justice for any one or more of the
following purpose areas:

      • Law enforcement programs

      • Prosecution and court programs

      • Prevention and education programs

      • Corrections and community corrections programs

      • Drug treatment programs

      • Planning, evaluation, and technology improvement programs

      • Crime victim and witness programs (other than compensation)

      The purpose of the 2006 JAG grant awarded to the DLPS was to
disrupt drug and criminal networks; create community-based partnerships,

      2
            Formula grant programs are noncompetitive awards distributed to states based on
a specific funding formula. Byrne Grant formula awards are based on State’s or Territory’s
share of violent crime and population.


                                           -1-

safe schools, and communities; aid in substance abuse treatment in
correctional facilities; improve the criminal justice system; and provide law
enforcement training. The intended use of funding awarded to the DLPS
under the 2009 Recovery Act grant was to implement New Jersey’s Safe
Streets and Neighborhoods Program. The goals and objectives of the
Recovery Act grant were to:

     •	 increase the number of jobs retained and created during the grant
        period;

     •	 encourage law enforcement agencies to move towards intelligence-
        led, data driven policing strategies;

     •	 enhance prosecutions of firearm offenses in high-crime rate
        counties;

     •	 expand Safe Fugitive Surrender Programs in conjunction with the
        Office of the U.S. Marshal;

     •	 reduce the number of youths involved with gangs, guns, and
        delinquency; and

     •	 reduce recidivism.

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets, in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      Through Recovery Act JAG funding, the Department of Justice (DOJ)
focused support on all components of the criminal justice system, including
multi-jurisdictional drug and gang task forces; crime prevention and
domestic violence programs; and courts, corrections, treatment, and justice
information sharing initiatives. Recovery Act JAG funded projects could
address crime by providing services directly to individuals and communities



                                      -2-

and by improving the effectiveness and efficiency of criminal justice
systems, processes, and procedures.

Audit Purpose

      The purpose of this audit was to determine whether costs claimed for
costs under the grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants, and to determine grant program performance and accomplishments.
The objective of our audit was to review performance in the following areas:
(1) grant requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures; (6) property
management; (7) supplanting; (8) management of subrecipients and
contractors; (9) Financial Status Reports (FSR), Progress Reports, and
Recovery Act Reports; and (10) program performance and accomplishments.
We determined that accountable property was not applicable to these
grants.

     As shown in the table below, the DLPS was awarded a total of
$53,363,818 to implement the six grant awards.

    EXHIBIT 1. EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
              GRANT PROGRAM GRANTS AWARDED TO THE NEW
             JERSEY DEPARTMENT OF LAW AND PUBLIC SAFETY

      Grant Award            Award            Award
                                                          Award Amount
        Number             Start Date        End Date
    2006-DJ-BX-0023        03/01/2006        09/30/2010       $5,160,709
    2007-DJ-BX-0099        07/25/2007        09/30/2010       $7,636,992
    2008-DJ-BX-0063        08/06/2008        09/30/2011       $2,775,529
    2008-DJ-BX-0759        09/30/2008        09/30/2011         $246,970
    2009-DJ-BX-0801        09/17/2009        09/30/2012       $7,789,303
    2009-SU-B9-0026        04/29/2009        02/28/2013      $29,754,315
                           Total:                           $53,363,818
      Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating state-of-
the-art knowledge and practices across America by providing grants for the
implementation of these crime fighting strategies. To support this mission,


                                      -3-

the BJA provides leadership and assistance to local criminal justice programs
that improve and reinforce the nation’s criminal justice system, with goals to
reduce and prevent crime, violence, and drug abuse and to improve the way
in which the criminal justice system functions.

      The DLPS is under the direction of the New Jersey Attorney General.
In addition to providing statewide law enforcement and emergency response
services, DLPS is responsible for protecting citizens' civil and consumer
rights, promoting highway traffic safety, maintaining public confidence in the
alcoholic beverage, gaming and racing industries, and providing legal
services and counsel to other state agencies.

        The mission of the DLPS is to protect the safety, security, and quality
of life of the people of New Jersey through an integrated and coordinated
structure of law enforcement and regulatory agencies. The Department
consists of 10 divisions, as well as independent commissions and boards.
The Attorney General, as head of the Department, serves as New Jersey’s
chief law enforcement officer and legal advisor, and is responsible for the
management and administration of the DLPS. Additionally, the DLPS
regulates the casino, boxing, alcoholic beverage, and racing industries, as
well as protects consumers against fraud.

OIG Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audited against are contained in the Office of Justice Programs Financial
Guide and the award documents. We tested the DLPS’s:

      •	 internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard grant funds and ensure compliance with the terms and
         conditions of the grant;

      •	 grant drawdowns to determine whether DLPS requests for
         reimbursement or advances were adequately supported, and if the
         grantee managed grant receipts in accordance with federal
         requirements;

      •	 grant expenditures to determine whether the costs charged to
         the grants were allowable and supported;

      •	 management of subrecipients to determine how the DLPS
         administered pass through funds;


                                      -4-

      •	 Financial Status Reports, Progress Reports, and Recovery
         Act Reports to determine if the required Financial Status Reports,
         Progress Reports, and Recovery Act Reports were submitted on
         time and accurately reflect grant activity; and

      •	 program performance and accomplishments to determine
         whether DLPS achieved grant objectives, and to assess
         performance and grant accomplishments.

      The results of our analysis are discussed in detail in the Findings
section of the report. Our audit objectives, scope, and methodology are
discussed in Appendix I.




                                     -5-

                 FINDINGS AND RECOMMENDATIONS

     Our audit did not disclose any instances of noncompliance in
     those areas that we tested. We determined that the DLPS
     generally complied with grant requirements in the areas we
     tested. We found that there were policies and procedures in
     place to ensure the proper use of grant funding, and all grant-
     related expenditures we tested were allowable and supported
     with proper documentation.


Internal Control Environment

      We began this audit by developing an understanding of the financial
and accounting systems and related internal controls the DLPS used to
ensure it complied with the terms and conditions of the grants. We
interviewed grant officials and requested financial and accounting system
data to determine if controls were adequate to separately account for and
maintain grant funds. According to a DLPS official, a separate account was
set up for each subrecipient. If the subrecipient was a state-level agency,
grant funding was transferred to their account in advance of expenditures.
For local agencies, grant funding was allocated to the account, but the
agency was reimbursed based on detailed cost statements submitted for
expenditures. Along with the detailed cost statements, subrecipients were
also responsible for submitting a funding voucher. This voucher was
required to include signatures by key subrecipient personnel. We verified
that these separate accounts were used during expenditure transaction
testing. Overall, we found that the internal controls being used by DLPS
were working and appeared to be adequate to safeguard grant funds
received and ensure compliance with the terms and conditions of the grants.

      We reviewed the 2006 through 2009 grant awards from the OJP Grant
Management System (GMS) to determine the special conditions for the
grants. We compared the special conditions of each grant to supporting
documentation to determine if the grantee complied with the special
conditions of the grant. We found that the grantee complied with the special
conditions of the grant. We also found no additional grant requirements for
the 2006-2009 grants.




                                    -6-

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a single audit conducted. The State of New Jersey’s fiscal
year is July 1 through June 30; and for FY 2008, KPMG conducted a single
audit of the State of New Jersey. We reviewed the FY 2008 Single Audit
Report for the State of New Jersey and found that the State had
unsupported costs totaling $37,125 and $104,277 in unallowed charges. In
addition, the Single Audit disclosed there was no separation of duties
between preparing FSRs and reviewing these reports for accuracy.

       We reviewed the State’s actions taken to correct findings from the
single audit. We found that the State has implemented and submitted
policies and procedures to subrecipients requiring the use of timesheets and
making reimbursements mandatory for local subrecipients. We also found
that a separation of duties existed between prepared and submitted FSRs.

Financial Management System

      The State uses the New Jersey Comprehensive Financial System
(NJCFS), which is a statewide, integrated governmental financial system.
Based on our review of DLPS policies and procedures, interviews with DLPS
personnel, and observation of the documents produced by the NJCFS, we
believe DLPS has an adequate system of internal controls to ensure
compliance with applicable requirements of both the JAG and Recovery Act
JAG programs. The financial management system provides for segregation
of duties, transaction traceability, system security, and limited access.

Drawdowns

       JAG award recipients are permitted to draw down the entire award
amount in a lump sum and place the funds in an interest-bearing account.
We reviewed the requests for funding and compared the OJP grant
disbursement reports with DLPS’s accounting records of grant funds
received. We determined that DLPS’s receipt of grant funding was
accurately reflected in its accounting records. Specifically, we noted that the
total award amount for grants 2006-DJ-BX-0023 and 2009-SU-B9-0026 was
drawn down and placed in interest bearing accounts on August 23, 2006,
and November 20, 2009, respectively.




                                      -7-

Program Income

      According to the OJP Financial Guide, all income generated as a direct
result of an agency-funded project shall be deemed program income.
Interest income on block grants, such as the JAG program must be
accounted for and reported as program income. Program income may be
used to further program objectives, and any unexpended program income
should be remitted to OJP.

      According to grant officials, all of the grant funds we reviewed were
placed in an interest bearing account and that interest was earned every
year in the month of July and distributed into the grant accounts by the
State’s Office of Management and Budget. Based on our review of DLPS
records, we determined that DLPS earned $591,070 in interest from grants
2006-DJ-BX-0023, 2007-DJ-BX-0099, 2008-DJ-BX-0063, and 2008-DJ-BX-
0759. We further determined that the interest earned was allocated to
support program related activities that included the Department of Criminal
Justices' Narcotics Unified Task Force grant as well as the State Police Gang
and Narcotics Task Force grants, and therefore was in accordance with the
requirements of the OJP Financial Guide.

Grant Expenditures

      The OJP Financial Guide also serves as a day-to-day management tool
for award recipients and subrecipients in administering grant programs by
establishing the factors affecting the allowability, reasonableness, and
allocability of both direct and indirect costs charged to DOJ grants.

      The DLPS’s grant expenditures consisted primarily of payments to
other New Jersey state and local agencies and personnel in order to perform
work in pursuit of achieving grant funded results. These funds were
intended for use of programs that worked to disrupt drug and criminal
networks; create community-based partnerships, safe schools, and
communities; aid in substance abuse treatment in correctional facilities;
improve the criminal justice system; and provide law enforcement training.
Other grant expenditures included indirect costs, and administrative supply
costs for items such as computer-related expenses, postage, and printing
fees.




                                     -8-

Personnel Expenses

      We identified personnel and fringe related expenses associated with
grants 2006-DJ-BX-0023 and 2009-SU-B9-0026. The personnel expenses
for both grants totaled $328,882.

       For grant 2006-DJ-BX-0023, we reviewed the accounting records and
identified personnel related expenses for 11 employees, totaling $229,611
for salaries, and $79,971 for fringe benefits. Although these employees did
not normally spend 100 percent of their time on activities related to grant
2006-DJ-BX-0023, initially all of their salary was charged to the grant,
including fringe benefits. At the end of each quarter, officials then reviewed
and calculated the amount of personnel costs related to JAG activities and
the JAG account was reimbursed for all expenses not associated with the
grant.

      We judgmentally selected two non-consecutive quarters, during the
grant period that included 14 biweekly pay periods. We reviewed personnel
expenses totaling $114,766 for five employees paid with grant funds to
determine whether the expenses were properly charged to the grants. To
complete our testing, we asked grant officials to provide us with employee
timesheets that indicated the amount of time each employee spent on grant
related activities for each pay period. By matching the number of hours
recorded in the approved timesheets to the grantee’s payroll records, as well
as DLPS’s salary allocation records for each individual employee we tested,
we determined the personnel expenses were allowable, properly supported,
and accurately recorded.

       For grant 2009-SU-B9-0026, we determined that the grantee used the
same process as described earlier to record and allocate personnel related
expenses. We reviewed the accounting records and identified personnel
related expenses for five employees during one quarter of the grant period
that included $14,186 for salaries and $5,114 for fringe. We reviewed the
salary related expenses for all five employees to determine whether the
expenses were properly charged to the grants. Using the same methodology
described above, we determined that personnel expenses for grant 2009-
SU-B9-0026 were allowable, properly supported, and accurately recorded.

      We reviewed the fringe benefit costs associated with the personnel
expenses we tested. For grants 2006-DJ-BX-0023 and 2009-SU-B9-0026,
we determined the New Jersey Office of Budget and Management sets and
applies the fringe benefit rate annually. We reviewed the elements of the
fringe rate and determined that it was reasonable. The rate in effect for the
personnel we tested for both grants was 36.05 percent. We reviewed the


                                     -9-

fringe rate applied to our samples for both grants in order to determine
whether fringe benefits were properly charged to the grant. Based on our
review, we determined that charges were accurate and in accordance with
the approved rate.

Payments to Contractors and New Jersey State and Local Agencies

      At the time of our audit, the DLPS had expended a total of $3,485,290
in payments to contractors and state and local agencies. We tested
$2,255,354 of these expenditures for accuracy and supportability. To
determine if transactions were accurately recorded and supported, we
compared DLPS's payment documentation to the accounting records of grant
transactions. We found that all of the transactions we tested were properly
authorized, recorded, and supported.

Administrative Costs

      Grantees are allowed to use up to 10 percent of grant funding for the
administration of JAG grants. For grants 2006-DJ-BX-0023, 2007-DJ-BX-
0099, 2008-DJ-BX-0063, and 2008-DJ-BX-0759, DLPS requested to use 10
percent of each grant for administrative costs related to the grants. DLPS
also requested to use 4 percent of grant funds for administrative costs for
grant 2009-DJ-BX-0801 and 3 percent for grant 2009-SU-B9-0026.

       We identified the administrative-related charges associated with grants
2006-DJ-BX-0023 and 2009-SU-B9-002. For grant 2006-DJ-BX-0023, we
identified a total of $309,582 related to personnel and fringe benefits,
$7,667 in indirect costs, and $16,937 for other direct costs which included
telephones, postage, and printing. For grant 2009-SU-B9-002, we identified
a total of $19,300 related to personnel and $772 for other direct costs that
included advertisement dues and travel reimbursement.

      We determined that all of the charges associated with administrative
costs were allowable, properly supported, and accurately recorded. A
summary of our review of administrative costs follows.

Indirect Costs

      DLPS submitted a negotiated indirect cost agreement, which was
approved by OJP for each fiscal year of the grants we audited. During our
audit, we determined that DLPS only had indirect costs associated with grant
2006-DJ-BX-0023. We reviewed the rate used by DLPS, which was 3.63
percent, and verified that the rate was current and accurate. We


                                    -10-

recalculated the indirect costs, which totaled $7,667, and determined the
amount was accurately calculated and applied appropriately and therefore
allowable according to the indirect cost agreement.

Supplanting

       According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace those funds
that have been appropriated for the same purpose. To determine whether
DLPS used grant funds to supplant existing state and local funds for program
activities, we reviewed the state budgets for fiscal years 2005 through 2007.
Based on our limited review of the state budget data, we found no direct
evidence that DLPS used federal funds to supplant state funds.

Management of Subrecipients

Solicitation Process

       According to DLPS officials, sub awards are distributed to counties and
local units of government on a formula or competitive basis. Solicitations
are sent out via notification letters to state-level agencies and local
applicants. Notices of Availability of Funds are also published for competitive
grant applications.

      We determined that there have been two competitive solicitations for
the grants we audited. The solicitations initially occurred on July 7,
2008, for grant 2007-DJ-BX-0099 and on October 5, 2009, for grant 2009-
SU-B9-0026. DLPS officials stated that the solicitations were placed in the
New Jersey Register and awards were made on a competitive basis.

     Based on our review of the solicitations for subrecipients, we
determined that the solicitations accurately and fully describe the grant
program, requirements of the program, and that awards were planned to be
awarded promptly.

Awards Process

      DLPS officials explained that projects funded under JAG are based on
state priorities and resources needed. A spending plan is developed with the
assistance of the State’s Office of the Attorney General (AG) and the Division
of Criminal Justice (DCJ).

     Many grants are awarded on a non competitive basis. Applications
must be submitted (including a budget), but all eligible programs receive


                                     -11-

funding. An internal peer review ensures that all data included in the
applications is correct. When the information is verified, a contract, which
may include additional special conditions, is sent to the applicant. When the
contract is returned, an internal peer review is conducted and when this
process is completed, the applicant is notified of approval.

       For competitive awards, the applications are scored by a review team
consisting of staff with expertise in criminal justice related issues. Each
member of the team reviews the applications and scores them based on the
criteria outlined in the score sheets. Based on the scores, the grants are
awarded to the highest rated.

      We reviewed a sample of 10 applications for grant 2007-DJ-BX-0099.3
We selected five applications that were awarded subgrant funding and five
applications that were denied subgrant funding. Additionally, we reviewed a
judgmental sample of the non-competitive applications for state level
programs and determined that they included all of the required information.
Based on our review, we found that the DLPS followed the policies outlined
above for funding applications under grant 2007-DJ-BX-0099.

Training and Technical Assistance

       According to one DLPS official, there is no formal process related to
training and technical assistance for subrecipients. However, the program
analysts are in constant contact with the subrecipients through email,
telephone, and site visits. Through this contact, DLPS is able to identify the
needs of the subgrantees. All subrecipients are required to attend training
related to the Recovery Act grants. All fiscal, program, and reporting
managers are required to attend the training which includes a slide-show
and review of Recovery Act reporting requirements. Based on our interviews
with grant officials, the training and technical assistance provided appears
adequate to ensure that subrecipients have a full opportunity to understand
program requirements.

Management of Funds

      According to one grant official, an account was set up by DLPS for
each grant’s subrecipients. If a subrecipient was a state-level agency, the
money was transferred immediately to the state-level agency account.
Additionally, detailed cost statements and funding vouchers were submitted


       3
         At the time of our fieldwork, DLPS was in the midst of the application process for the
Recovery Act related solicitations. Therefore, we were unable to perform testing.


                                            -12-

quarterly. These funding vouchers were to include signatures by the grant
manager and accounts manager, verifying the information being submitted.

      For those subrecipients that were local agencies, the money was to be
allocated to each program’s account and reimbursed based on detailed cost
statements submitted for expenditures by the subrecipients. DLPS
analysts were assigned to review each subrecipients’ accounts. During our
transaction testing, we verified this process and determined that
transactions were accurately recorded and supported.

      The DLPS provided us with examples of how subrecipient performance
was measured. We viewed Performance Measures Reports and Quarterly
Performance Narratives to understand how each program performed during
the given time periods. DLPS also provided tracking logs and Detailed Cost
Statements that were used to monitor subrecipient spending and document
submission to DLPS. Based on these documents, we determined that DLPS's
measures of performance were reasonable indicators for evaluating actual
performance by subrecipients.

       In our review of the funding associated with the Recovery Act, DLPS
officials stated that New Jersey State Auditors will monitor this program. In
order to comply with the Recovery Act’s Section 1512 reporting, and to
ensure timely reports, DLPS has required that all subrecipients submit
monthly reports. These reports will be reviewed by DLPS staff, including a
review by the program’s Research and Evaluation analysts. Finally, when
the submission is posted online, a Department administrator will verify the
data submitted by the subrecipients.

      Based on our testing, we determined that DLPS’s process for managing
grant funds appears to be sufficient to ensure accountability for
subrecipients’ requests for funds.

Monitoring

       Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. To this end, OJP requires that sub awards be monitored
throughout the life of the grant to ensure that: (1) the subrecipient
complies with the programmatic, administrative, and fiscal requirements of
the relevant statutes, regulations, policies, and guidelines; (2) programs
initiated by the subrecipient are carried out in a manner consistent with the
relevant statutes, regulations, policies, and guidelines of the program;
(3) the subrecipient is provided guidance on policies and procedures, grant
program requirements, general federal regulations, and basic programmatic,


                                    -13-

administrative, and financial reporting requirements; and (4) any problems
that may impede the effective implementation of grant programs are
identified and resolved.

      According to grant officials, program analysts for the grantee monitor
the grantees through review of reports submitted by the grantee, telephone
contact, and site visits. We reviewed a sample of 20 documents related to
the monitoring of subrecipients. The reports included; quarterly narrative
reports, emails, monthly progress reports from subgrantees, and site visit
reports. These reports included detailed summaries of the accomplishments
to date, performance measures, crime data and analysis, and the outcome
measures related to the goals and objectives.

      Based on our review of the monitoring reports, and interviews with
grant officials, we believe that through program analysts, the grantee
properly carried out their established monitoring procedures. We
determined the monitoring process complied with program requirements,
including reporting of performance measures, site visits, and outcome
measures related to the goals and objectives of individual subrecipients.

Monitoring Contractors

       For the 2006 grant, we found that DLPS received approval from OJP
for a sole source contract. The contract was intended to provide $186,972
to a local university to provide strategic crime analysis for the state of New
Jersey.

      While we do not take any issues with DLPS in providing this subgrant
as a sole source contract, we believe that the DLPS should monitor the
contractor to ensure compliance with grant requirements. We did find that
the university provided DLPS with Quarterly Narrative Reports to show
progress in mapping and geo-coding crime areas in the targeted New Jersey
communities, and we believe that these reports demonstrated adequate
monitoring by the DLPS.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the
objectives, and report other pertinent information. We reviewed the FSRs,
Progress Reports, and the Recovery Act Reports submitted by DLPS to
determine whether each report was timely and accurate.



                                     -14-

Subrecipient Reporting

       Prior to the Recovery Act grant 2009-SU-B9-0026, subrecipients were
required to prepare quarterly, bi-monthly, or monthly detailed cost
statements, which were reviewed and approved by DLPS staff. In order to
be compliant with the Recovery Act’s Section 1512 reporting requirements
and to ensure timely reports, DLPS now requires all subrecipients to report
monthly, by the seventh day of the following month. In our discussions with
grant officials, we were told that subrecipient reports go through several
reviews to ensure proper reporting and accuracy. We also reviewed the
policies and procedures in place for managing subrecipient Recovery Act
Reports, Progress Reports, and FSRs. From our review we determined that
these policies and procedures are sufficient and adequate to ensure timely
and accurate reports.

Financial Status Reports

       According to the OJP Financial Guide, quarterly FSRs are due no later
than 45 days after the end of the quarter, with the final FSR due within
90 days after the end date of the award. We reviewed the timeliness of the
last four FSRs submitted during the award period for grant 2006-DJ-BX-0023
and the last three FSRs submitted during the award period for grant
2009-SU-B9-0026. Based on our review, we found that the DLPS submitted
each report in a timely manner.

       By comparing the amount of total expenditures reported on the FSRs
with expenditure data from the accounting records maintained by the
grantee, we determined that all FSRs accurately reflected grant related
activities. We further determined that all of the FSRs we reviewed
accurately reflected grant related activities.

Annual Progress Reports

       OJP requires all JAG recipients to submit annual progress reports. For
FY 2008 and prior, the permanent annual reporting period for all state and
local JAG awards is January 1 through December 31, with reports due
March 31. For FY 2009 and forward, including Recovery Act JAG grants,
state recipients must submit annual progress reports and quarterly
Performance Metric Tool (PMT) reports. The annual progress reporting
period is the award start date through September 30, with reports due
November 29. The quarterly PMT reports are due on the 30th of the month
following the close of a quarter. State recipients may use the four PMT
reports to satisfy the annual reporting requirement by uploading the reports
into the OJP Grant Management System.


                                    -15-

      We determined that for each reporting period prior to the FY 2009
grants, DLPS submitted one annual report that included all JAG grants active
during that period. In total, we determined they submitted three annual
reports associated with grants 2006-DJ-BX-0023, 2007-DJ-BX-0099, 2008-
DJ-BX-0063, and 2008-DJ-BX-0759. We determined the reports were timely
for each of the grants. We also determined that the annual reports
submitted for grant activities associated with grant 2009-SU-B9-0026, which
was due for the period ending September 30, 2009, was submitted on time.

       Finally, we reviewed the most recent annual report (FY 2008) for
accuracy. By comparing the data submitted in the progress reports to
related source documentation, which included quarterly reports from all
subrecipients, performance measure reports, and Uniform Crime Report
(UCR) data and statistics, we determined that the information contained in
this report was consistent with the source documents related to the grant
and accurately reflected grant-related activities.

Quarterly Recovery Act Reports

       In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.
According to BJA and OMB guidance, Recovery Act Reports are due 10 days
after the close of each quarter.4

      We reviewed the two Recovery Act Reports, submitted so far, for
timeliness and found that DLPS submitted each report in a timely manner.
The DLPS officials explained that in order to ensure the quarterly Recovery
Act Reports are timely, subrecipients are required to submit monthly reports
that are due by the seventh day of the following month.

      To ensure accuracy of the data, DLPS has procedures in place to
ensure subrecipients receive training on data collection and reporting.
Research and evaluation analysts from DLPS review and reconcile the
subrecipients’ data. A draft of all data reporting documents is provided to
and reviewed by the Chief of Program Developments/Grants and the State
Office of Victim-Witness Advocacy. Once the draft has been reviewed and
approved, the research and evaluation analyst submits the final report.




       4
         According to FederalReporting.gov Guidance, the recipient reporting due date of
January 10, 2010, was extended to January 22, 2010.



                                           -16-

      According to OMB guidance, the reports aim to provide transparency
on the use of these funds. The Recovery Act Reports are required to include
the following information;

     •	 Total amount of funds received and the amount of funds spent on
        projects and activities.

     •	 A list of those projects and activities funded by name, including a
        description, completion status, and estimates on jobs created or
        retained.

     •	 Details on subawards and other payments.

       We reviewed the Recovery Act Reports ending in September 2009 and
December 2009 for accuracy and determined that there were no grant
related activities reported on the first report. For the second report,
although the grantee stated it allocated funds to local agency recipients and
transferred funds to the accounts of state level subrecipients, it reported
that no subrecipients spent any Recovery Act funds. We found no evidence
of spending and therefore determined that the grantee accurately reported
its grant activities.

Program Performance and Accomplishments

     The purpose of the grant funds awarded to the DLPS were for the:

     •	   Disruption of drug and criminal networks - targeted enforcement of
          drug trafficking, criminal street gangs, and money laundering
          operations;

     •	   Community-based partnerships - multi-agency strategies involving
          innovative partnerships among criminal justice agencies, social
          service agencies, and community-based organizations;

     •	   Safe schools and communities - initiatives to address local public
          safety issues, gang prevention and intervention strategies;

     •	   Substance abuse treatment - substance abuse treatment in
          correctional facilities;

     •	   Criminal justice system improvements - integration and the
          enhancement of state information systems; and




                                     -17-

     •	   Law enforcement training - specialized training for criminal justice
          officials.

Additionally, the Recovery Act objectives were to:

     •	   Increase the number of jobs retained and created during the grant
          period;

     •	   Encourage law enforcement agencies to move towards intelligence-
          led, data driven policing strategies;

     •	   Enhance prosecutions of firearm offenses in high-crime rate
          counties;

     •	   Expand Safe Fugitive Surrender Programs in conjunction with the
          Office of the U.S. Marshal;

     •	   Reduce the number of youth involvement in gangs, guns, and
          delinquency; and

     •	   Reduce recidivism.

      Grant officials stated the goals and objectives of the 2006 grant
were prevention, reentry, partnerships, treatment, and training. To
determine how DLPS measured the progress towards achieving these goals
and objectives, we obtained examples of DLPS’s Performance Measures
Reports and Quarterly Narrative Reports. The Performance Measures
Reports outlined each performance measure and showed data related to how
the subrecipient addressed each measure. The Quarterly Narrative Reports
outlined project goals and the subrecipients provided a narrative of how the
subrecipient addressed the specified goal.

      We also viewed documentation collected by DLPS to illustrate the
impact of the grant funded programs. We determined that the information
included in these reports showed a positive impact on the community.
Examples of other outreach efforts were also provided. We viewed these
outreach efforts as consistent with the goals and objectives of the grant
program.




                                      -18-

Conclusion

     We examined the DLPS’ accounting records, FSRs, Progress Reports,
Recovery Act Reports, and operating policies and procedures and found:

      •	 The financial management system provides for segregation of
         duties, transaction traceability, system security, and limited access.

      •	 The DLPS accounted for and reported program income accurately.

      •	 The transactions reviewed were properly authorized, classified,
         supported, and charged to the grants.

      •	 All costs associated with payroll and fringe benefits for the pay
         periods reviewed were allowable, supportable and reasonable.

      •	 The FSRs reviewed under the grants were submitted in a timely
         manner and generally accurate.

      •	 The process in place for managing grant funds appears to be
         sufficient to ensure accountability for subrecipients’ requests for
         funding.

      •	 The DLPS adequately monitored contractors.

      •	 The DLPS complied with the special conditions associated with each
         of the grants.

     Overall, we believe that DLPS’ policies and procedures will allow it to
adequately manage Recovery Act funds.




                                     -19-

                                                               APPENDIX I 



               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under grants 2006-DJ-BX-0023, 2007-DJ-BX-0099,
2008-DJ-BX-0063, 2008-DJ-BX-0759, 2009-DJ-BX-0801, and
2009-SU-B9-0026 were allowable, supported, and in accordance with
applicable laws, regulations, guidelines and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) internal control environment, (2) drawdowns, (3) cash
management, (4) program income, (5) grant expenditures, (6) supplanting,
(7) management of subrecipients and contractors (8) Financial Status
Reports (FSR), Progress Reports, and Recovery Act Reports, and
(9) program performance and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      The scope of the audit was the Byrne Grant Formula awards for fiscal
years 2006 through 2009 with an emphasis on the 2008 awards and the
2009 Recovery Act and Non-Recovery Act awards. However, the DLPS had
not expended any of the 2008 or 2009 non Recovery Act funding, so we
focused our audit on the 2006 grant, which was the most complete by the
time of fieldwork, as well as the 2009 Recovery Act grant, in which the DLPS
has expended administrative related costs. The focus of the audit was on
testing critical program areas as defined in the audit objectives. For each
area, we developed a specific scope of testing based on the most recent time
period associated with the significant activities within each area.

      The audit concentrated on grants 2006-DJ-BX-0023,
2007-DJ-BX-0099, 2008-DJ-BX-0063, 2008-DJ-BX-0759,
2009-DJ-BX-0801, and 2009-SU-B9-0026 through the most recent period
for which there were complete financial records, which was December
2009. In addition, testing of source documents was performed at the
DLPS’s facility to assess the accuracy of reimbursement requests;
however, the reliability of the financial management system as a whole
was not tested. Documents were reviewed and interviews conducted at
the DLPS facility to determine whether the DLPS acted in accordance with
the terms and conditions of the grants and claimed costs were accurate.



                                    -20-

      We tested compliance with what we considered to be the most
important conditions of the grants. Unless otherwise stated in our report,
the criteria we audited against are contained in the Office of Justice
Programs Financial Guide and the award documents.

       In conducting our audit, we performed sample testing in five areas,
which were grant expenditures, including payroll; management of
subrecipients; FSRs; Progress Reports; and Recovery Act Reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the grants reviewed, such as dollar amounts or
expenditure category. This non-statistical sample design did not allow
projection of the test results to the universes from which the samples were
selected.

      In addition, we assessed the grantee’s monitoring of subrecipients;
reviewed the timeliness and accuracy of FSRs, Progress Reports, and
Recovery Act Reports; and evaluated performance to grant objectives.
However, we did not test the reliability of the financial management system
as a whole and reliance on computer based data was not significant to our
objective




                                    -21-

                                                                                                          APPENDIX II

                   NEW JERSEY DEPARTMENT OF LAW AND PUBLIC SAFETY

                         RESPONSE TO THE DRAFT AUDIT REPORT 



                                                   State of New Jersey
                                              OFFICE OF THE ATTORNEY GENERAL
CHRIS CHRISTIE                              DEPARTMENT OF LAW AND PUBLIC SAFETY                                           PAULA T. DOW
   Governor                                              PO BOX 081                                                         Attorney General
                                                   TRENTON, NJ 08625-0081
KIM GUADAGNO                                                                                                      DANIEL W. FOSTER
  Lt. Governor                                                                                                                 Administrator


                                                           June 14, 2010


        Thomas O. Puerzer
        Regional Audit Manager
        US Department of Justice
        Office of the Inspector General
        701 Market Street Suite 201
        Philadelphia, Pennsylvania 19106

        Dear Mr. Puerzer,

           The following is the response of the New Jersey Department of Law and Public Safety
        (DLPS) to the draft audit report on the Office of Justice Programs (OJP), Edward Byrne
        Memorial Justice Assistance Grants (JAG) numbers: 2006-DJBX-0023, 2007-DJBX-0099,
         2008-DJBX-0063, 2008-DJBX-0759, 2009-DJBX-0801, and 2009-SUB9-0026.

            The draft report has been reviewed and DLPS officials are in agreement with all aspects
        of the report. We offer no additional comments or responses.

              Thank you for the opportunity to provide comments on the report.

                                                            Sincerely,



                                                            Daniel W. Foster
                                                            Administrator

        BGO788
        DWF/dg
        cc: Distribution list attached

                          HUGHES JUSTICE COMPLEX • TELEPHONE: (609)292-4925 FAX: (609)292-3508
                         New Jersey is an Equal Opportunity Employer • Printed on Recycled Paper and Recyclable
cc: Paula T. Dow, Attorney General
   Carolyn Murray, Counsel to the Attorney General
   Stephen J. Taylor, Director, DCJ
   Heddy Levine-Sabol, Chief, DCJ
   Kristen Fischer, Director, DLPS
   Ronald W. Kraemer, Deputy Director, DLPS
   Kelly Ottobre, Department Grants Coordinator
   Maureen A. Henneberg, Director, OJP, OAAM




               HUGHES JUSTICE COMPLEX • TELEPHONE: (609)292-4925 FAX: (609)292-3508

              New Jersey is an Equal Opportunity Employer • Printed on Recycled Paper and Recyclable




                                                     -23-

                                                                              APPENDIX III


             OFFICE OF JUSTICE PROGRAMS RESPONSE TO THE 

                         DRAFT AUDIT REPORT 


June 22, 2010


MEMORANDUM TO:                Thomas O. Puerzer
                              Regional Audit Manager
                              Office of the Inspector General
                              Philadelphia Regional Audit Office

FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Office of Justice Programs,
                              Bureau of Justice Assistance, Edward Byrne Memorial Justice
                              Assistance Grant Program Grants Awarded to the New Jersey
                              Department of Law and Public Safety, Trenton, New Jersey

This memorandum is in response to your correspondence dated May 28, 2010, transmitting the
above-referenced draft audit report for the New Jersey Department of Law and Public Safety.
The draft report does not contain any recommendations. The Office of Justice Programs has
reviewed the draft audit report and does not have any comments.

We appreciate the opportunity to review and comment on the draft report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Amanda LoCicero
        Budget Analyst
        Bureau of Justice Assistance

        Flora D. Lawson
        Program Manager
        Bureau of Justice Assistance

        Richard P. Theis
        Assistant Director
        Audit Liaison Group
        Justice Management Division
cc:   OJP Executive Secretariat 

      Control Number 20101010 





                                    -25-

